      Banks that Used the Small Business
        Lending Fund To Exit TARP




SIGTARP 13-002                        April 9, 2013
                    Office of the special inspector general
                         For the Troubled Asset Relief Program
                                   1801 L Street, NW, 4th Floor
                                     Washington, D.C. 20220




                                         April 9, 2013


MEMORANDUM FOR:               The Honorable Jacob J. Lew – Secretary of the Treasury

                              The Honorable Thomas J. Curry – Comptroller of the Currency

                              The Honorable Martin J. Gruenberg – Chairman, Board of
                              Directors of the Federal Deposit Insurance Corporation

                              The Honorable Ben S. Bernanke – Chairman, Board of Governors of
                              the Federal Reserve System

FROM:                         The Honorable Christy L. Romero – Special Inspector General for the
                              Troubled Asset Relief Program


SUBJECT:                      Banks that Used the Small Business Lending Fund To Exit TARP
                              (SIGTARP 13-002)

We are providing this report for your information and use. It discusses the small banks that
exited the Troubled Asset Relief Program through the Small Business Lending Fund
program.

The Office of the Special Inspector General for the Troubled Asset Relief Program conducted
this audit (engagement code 026) under the authority of Public Law 110-343, as
amended, which also incorporates the duties and responsibilities of inspectors general under the
Inspector General Act of 1978, as amended.

We considered comments from the Department of the Treasury, the Federal Reserve Board, the
Federal Deposit Insurance Corporation, and the Office of the Comptroller of the Currency
when preparing the report. Treasury’s comments, along with those of the Federal banking
regulators, are addressed in the report, where applicable, and a copy of the Treasury, Federal
Reserve Board, Federal Deposit Insurance Corporation, and the Office of the Comptroller of the
Currency responses are included in the Management Comments section in Appendix D.

We appreciate the courtesies extended to our staff. For additional information on this report,
please contact Mr. Bruce S. Gimbel, Acting Assistant Deputy Special Inspector General for
Audit and Evaluation (Bruce.Gimbel@treasury.gov / 202-927-8978).


SIGTARP 13-002                                                                          April 9, 2013
Banks that Used the Small Business Lending Fund To Exit TARP


                                                         more than three times that amount – $3.45 for each
Summary                                                  $1 in SBLF funds.

On September 27, 2010, Congress created the Small        The 132 of 137 former TARP banks remaining in
Business Lending Fund (“SBLF”) as part of the Small      SBLF have not effectively increased small-business
Business Jobs Act of 2010, which permitted Treasury      lending because they used approximately 80% of
to invest up to $30 billion in eligible small banks to   SBLF funds ($2.1 billion of the $2.7 billion) to repay
increase “the availability of credit for small           TARP. Although as a group, the former TARP banks
businesses.” Unlike the Troubled Asset Relief            remaining in SBLF increased lending by $1.13 for
Program (“TARP”), SBLF incentivized lending by           each $1 in SBLF funds received, there was a
rewarding increases in lending with lower rates that a   significant difference in lending depending on
bank would pay the Government for the use of the         whether the bank received only enough SBLF funds
money (known as the dividend rate).                      to repay TARP or received additional funds. TARP
                                                         banks that received only enough SBLF funds to
The scope and scale of SBLF were not as expected,        repay TARP have lent out significantly less than they
with most of the money going to banks already in         received in SBLF funds – increasing lending by only
TARP. Treasury invested only $4 billion of the           25ȼ for each $1 in SBLF funds. TARP banks that
$30 billion available – two-thirds of which              received additional SBLF money beyond the
($2.7 billion) went to 137 TARP banks that used          outstanding TARP balance have increased lending
$2.1 billion in SBLF funds to exit TARP in 2011.         by $1.67 for every $1 in SBLF funds. TARP banks
                                                         had much to gain and little to lose from refinancing
As part of the Office of the Special Inspector General   into SBLF irrespective of their small-business lending
for the Troubled Asset Relief Program’s (“SIGTARP”)      capability or willingness to lend. If the former TARP
continuing oversight of TARP, SIGTARP conducted          banks fail to increase lending, there is no meaningful
this review to determine whether Treasury and            penalty.
regulators consistently evaluated applications
submitted by TARP banks to refinance into SBLF.          Congress’ safeguard of requiring that banks submit a
                                                         small-business lending plan did not have the
                                                         intended effect because Treasury and the Federal
What SIGTARP Found                                       banking regulators – Federal Reserve Board
                                                         (“Federal Reserve”), Federal Deposit Insurance
Viewed by members of Congress as a fix for TARP’s        Corporation (“FDIC”), and Office of the Comptroller of
failure to require or incentivize banks to lend the      the Currency (“OCC”) – did not adequately assess
money, SBLF provided participating banks with            whether the banks’ plans to increase small-business
incentives to increase small-business lending.           lending were achievable – they did not focus on
Although Congress allowed TARP banks to                  whether the TARP banks were prepared to lend
participate, Congress intended that the banks would      SBLF capital. SIGTARP found that Treasury and the
increase their loans to small businesses, and as a       Federal banking regulators did not effectively
safeguard, required that applicant banks submit to       communicate with each other, each claiming that the
their Federal banking regulator a “small business        other had responsibility to assess the banks’ lending
lending plan” detailing how the bank would increase      plans. Treasury’s SBLF program director told
lending.                                                 SIGTARP that Treasury did not perform an
                                                         independent analysis of the projections in the lending
However, former TARP banks in SBLF have not              plans, and that analysis of the lending plans was the
effectively increased small-business lending and are     regulators’ responsibility because the law required
significantly underperforming compared to non-TARP       that the lending plans be submitted to regulators.
banks. Twenty-four former TARP banks have not            Regulators did not agree with Treasury’s view.
increased their lending. The remaining former TARP
banks have increased lending by $1.13 for each           The result of this lack of effective communication was
SBLF dollar they received. By comparison, banks          an overall lack of scrutiny by Treasury and regulators
that did not participate in TARP but received SBLF       to determine whether the banks’ plans were credible.
funding have increased small-business lending by         Regulators did not consistently take action to
                                                         preserve the intent of Congress by meaningfully
SIGTARP 13-002                                                                              April 9, 2013
Banks that Used the Small Business Lending Fund To Exit TARP


reviewing the banks’ proposals to increase lending.      cumulative dividends at a higher payment to
Instead, regulators generally focused on the banks’      taxpayers. Instead, SBLF served as a vehicle for a
viability, in a process described by one regulator as    significant number of TARP banks to exit TARP using
“left over” from TARP. Treasury’s review of the          Government funds with more favorable terms than
lending plans was superficial, merely filling in a       TARP with little resulting benefit for small businesses.
“check-the-box” review form, despite obvious
questions about TARP banks’ ability to meet the
SBLF program’s lending goals for those banks that        What SIGTARP Recommended
would use SBLF funds to repay TARP. Treasury and
regulators did not deny SBLF funding to any TARP         SIGTARP recommended: (1) that Treasury and the
bank based on its lending plan.                          Federal banking regulators improve coordination
                                                         when collaborating on current and future initiatives;
Congress intended that SBLF fix the significant lost     (2) to increase small-business lending by former
opportunity in TARP that banks were not required or      TARP banks participating in SBLF, Treasury should
given incentives to lend. The lending plans were the     work with the banks to establish new, achievable
safeguard to provide that fix, but without consistent,   plans to increase lending going forward; and (3) to
meaningful review of those plans by Treasury and the     preserve the amount of capital former TARP banks
Federal banking regulators, there was no substantive     participating in SBLF have to lend, the primary
difference between TARP’s application review             Federal banking regulators (the Federal Reserve,
process and SBLF’s application review process for        FDIC, or OCC) should not approve dividend
TARP banks, as it related to lending. Many of the        distributions to common shareholders of former
TARP banks that refinanced into SBLF are                 TARP banks that have not effectively increased
demonstrating an inability or unwillingness to fulfill   small-business lending while in SBLF.
the sole purpose of the program – increase lending to
small businesses. Many TARP banks may not have           Treasury, FDIC, the Federal Reserve, and OCC
had the wherewithal to increase lending because          provided official written responses, which are
they used their SBLF funds to repay TARP.                reproduced in full in Appendix D. A discussion of
                                                         these responses and SIGTARP’s response can be
By not developing and implementing meaningful            found in the Management Comments and
SBLF application review procedures that would            SIGTARP’s Responses section of this report.
achieve the intended purpose of promoting lending,
Treasury and the regulators lost sight of Congress’
primary goal of the program – to increase lending to
small businesses. Treasury and the regulators
should have assessed the credibility of the
information provided by each applicant TARP bank in
its lending plan to ensure that those banks exiting
TARP through SBLF were well positioned and well
prepared to meet SBLF’s sole purpose to increase
lending to small businesses. At a minimum, Treasury
and the regulators should have required TARP bank
applicants to identify another source of capital to
increase lending when the institutions sought to use
all of the SBLF capital they received to repay TARP.
If these TARP banks had been unable to
demonstrate a credible source of capital to lend,
regulators and Treasury may have identified some of
the applicants as unsuited to exit TARP using SBLF
funds. Had these banks remained in TARP, they
would have been subject to TARP’s limitations on
executive compensation, luxury expenditures, and




SIGTARP 13-002                                                                                      April 9, 2013
Banks that Used the Small Business Lending Fund To Exit TARP



Table of Contents

Background ..................................................................................................................................... 1
   The Government’s Process To Review Banks’ Applications for SBLF Funds ......................... 3
   SBLF Application Phase One – Federal Banking Regulator Review ........................................ 4
   SBLF Application Phase Two – Treasury Review ..................................................................... 5
Objective ......................................................................................................................................... 5
SBLF Has Not Effectively Increased Lending by Former TARP Banks that Used SBLF
To Exit TARP ................................................................................................................................. 6
   Many TARP Banks Used SBLF Primarily as a Means To Exit TARP and Its Restrictions ...... 8
Treasury and Federal Banking Regulators Did Not Adequately Assess Whether Banks’ Plans
To Increase Small-Business Lending Were Actually Achievable ................................................ 10
   Treasury and Federal Banking Regulators Did Not Effectively Communicate with Each
   Other; Each Relied on the Other To Assess the Banks’ Plans To Increase Lending ............... 11
   Regulators Did Not Consistently Take Action To Preserve the Intent of Congress and
   SBLF by Meaningfully Reviewing the Banks’ Proposals To Increase Lending ...................... 12
   Treasury’s Review of Banks’ Plans To Increase Lending Was Superficial and Employed
   a “Check-the-Box” Review ...................................................................................................... 13
Conclusion and Recommendations ............................................................................................... 16
   Lessons Learned and Recommendations .................................................................................. 19
Management Comments and SIGTARP’s Responses .................................................................. 21
Appendix A – Scope and Methodology ........................................................................................ 24
Appendix B – Acronyms and Abbreviations ................................................................................ 26
Appendix C – Audit Team Members ............................................................................................ 27
Appendix D – Management Comments from Treasury, FDIC, OCC, and Federal Reserve ........ 28




SIGTARP 13-002                                                                                                                                  April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                           1




                      Background
                      This report discusses how, in 2011, 137 of the small banks bailed out by TARP
                      used more than $2 billion from another Government program, the Small Business
                      Lending Fund, to repay and exit TARP.1

                      In the wake of the financial crisis, the amount of credit available to small
                      businesses declined substantially. According to Federal Deposit Insurance
                      Corporation (“FDIC”) data, the total dollar amount of outstanding small-business
                      loans dropped by nearly 15% between mid-2008 and mid-2011. The Troubled
                      Asset Relief Program’s (“TARP”) bank program, called the Capital Purchase
                      Program (“CPP”) was designed in part to address the decline in lending. From
                      October 2008 through December 2009, the U.S. Department of the Treasury
                      (“Treasury”) invested $204.9 billion into 707 banks to “stabilize and strengthen
                      the U.S. financial system by increasing the capital base of healthy, viable
                      institutions, enabling them [to] lend to consumers and business[es].” Although a
                      goal of the TARP bank program was to provide money to enable the banks to
                      lend, Treasury did not require, or even incentivize, the banks to lend the TARP
                      funds. A study published by the Small Business Administration found that from
                      2008 to 2011, TARP banks decreased their small-business lending even more than
                      non-TARP banks.2

                      On September 27, 2010, Congress created the Small Business Lending Fund
                      (“SBLF”) as part of the Small Business Jobs Act of 2010 (“Jobs Act”), which
                      permitted Treasury to invest up to $30 billion through this new program in
                      eligible small banks to increase “the availability of credit for small businesses.”3
                      To ensure that this lending objective was achieved, Congress required that all
                      applicants submit a small-business lending plan addressing how they would
                      increase small businesses lending. Unlike TARP, SBLF incentivized lending by

1
  Many of the larger banks exited the Troubled Asset Relief Program (“TARP”) as soon as they were able to obtain
  regulatory approval to repay. For a detailed report of the circumstance surrounding the largest banks’ exits from
  TARP, see SIGTARP’s report, “Exiting TARP: Repayments by the Largest Financial Institutions,” published on
  September 29, 2011, at
  www.sigtarp.gov/Audit%20Reports/Exiting_TARP_Repayments_by_the_Largest_Financial_Institutions.pdf. Of the
  137 institutions that exited TARP through the Small Business Lending Fund (“SBLF”), 132 remained in SBLF through
  the program’s most recent reporting cycle ending September 30, 2012, the latest data available. Five of the original
  137 institutions paid back Treasury subsequent to entering SBLF.
2
  A November 2012 report developed under a contract with the Small Business Administration titled “How Did the
  Financial Crisis Affect Small Business Lending in the United States?” states, “During the financial crisis, small
  business lending declined by $117 billion, or almost 18%, to only $543 billion in 2011.” The report continues, “At
  TARP banks, small-business lending declined by $74 billion, or 21% from 2008 – 2011 whereas at non-TARP banks,
  the decline was only $42 billion, or 14%.”
3
  The Jobs Act limited participation in SBLF to banks with $10 billion or less in assets at the end of 2009. Banks with
  $1 billion or less in assets could apply to receive up to 5% of their risk-weighted assets, while those with more than
  $1 billion and less than or equal to $10 billion in assets could receive up to 3%. As with TARP’s bank programs,
  Treasury invested by purchasing preferred stock or other instruments in the bank.


SIGTARP 13-002                                                                                                  April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                             2




                      rewarding increases in lending with lower rates that a bank would pay the
                      Government for the use of the money (known as the dividend rate).4 Senators
                      discussed on the Senate floor how SBLF was “filling a gap” or was a “fix” to
                      TARP because TARP did not contain requirements or incentives to lend.

                      The scope and scale of SBLF were not as expected, with most of the money going
                      to banks already in TARP. In 2011, Treasury invested only $4 billion of the
                      $30 billion available – two-thirds of which ($2.7 billion) went to 137 TARP banks
                      that used approximately $2.1 billion in SBLF funds to exit TARP.5 On
                      October 18, 2011, then-Treasury Secretary Timothy F. Geithner testified before
                      the Senate Committee on Small Business and Entrepreneurship that there was “a
                      good case” for Congress allowing banks to refinance their TARP money with
                      SBLF funds “because the capital they got [in] this program comes with a better
                      incentive to use it to lend.”

                      Several members of Congress voiced concerns that the program could serve as a
                      vehicle for TARP recipients to refinance into SBLF under more favorable terms
                      with little resulting benefit for small businesses. TARP banks paying a dividend
                      rate of 5% that transferred into the SBLF program had the potential to lower their
                      dividend rate to 1% if they increased lending.6 In addition, the SBLF dividend is
                      non-cumulative, meaning that participants have no obligation to make quarterly
                      payments as scheduled or catch up on missed payments, compared to TARP
                      dividends, which generally are cumulative. TARP banks that used SBLF to exit
                      TARP also benefited from a removal of restrictions that existed in TARP but not
                      in SBLF, such as restrictions on executive compensation and on luxury
                      expenditures.7

                      Some members of Congress noted that SBLF substantially resembled TARP and
                      expressed doubt that lending would increase. SIGTARP also raised this concern
                      for TARP banks applying to SBLF. In September 2010, SIGTARP sent a letter to
                      Treasury Secretary Geithner recommending that Treasury not count TARP capital
                      when evaluating the health and viability of a bank applying for SBLF, stating “it

4
  The Jobs Act defined qualified small-business lending as loans of $10 million or less or to businesses with $50 million
  or less in revenues. Qualified loans were limited to commercial and industrial loans; owner-occupied nonfarm,
  nonresidential real estate loans; loans to finance agricultural production and other loans to farmers; and loans secured
  by farmland.
5
  For further discussion on these SBLF investments into TARP banks, see SIGTARP’s report, “TARP & SBLF: Impact
  on Community Banks,” published April 25, 2012,
  www.sigtarp.gov/Audit%20Reports/TARP_SBLF_Special_Section.pdf.
6
  According to Treasury’s “SBLF: Getting Started Guide For Community Banks,” the cost of capital (the dividend rate)
  for SBLF started at no higher than 5%. If the bank increased its small-business lending by 10% or more, the rate
  would fall to as low as 1%. For increases in small-business lending of less than 10%, the rate could fall to between 2%
  and 4%.
7
  Treasury’s “SBLF: Getting Started Guide For Community Banks” stated, “Participation in the Small Business Lending
  Fund carries no executive compensation restrictions” and that any institution participating in SBLF would not be
  considered a TARP recipient.


SIGTARP 13-002                                                                                                    April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                    3




                    makes little sense to convert a bank into SBLF – a program intended to
                    incentivize increased lending – if the institution does not have the necessary
                    capital to support such increased lending.” SIGTARP continued, “An institution
                    that would not have an adequate capital base but for the Government’s investment
                    likely will not have the necessary capital to support increased lending.”

                    In response to concerns that there were insufficient safeguards to ensure that
                    banks would lend SBLF funds to small businesses, then-Chairwoman of the
                    House Committee on Small Business, Nydia Velázquez, introduced language in a
                    bill requiring banks to include a small-business lending plan with their SBLF
                    application. In discussions on the House floor, Velázquez stated that she insisted
                    on specific language in the Jobs Act to require “a detailed plan on how to increase
                    small business lending at their institution.” According to Treasury, the small-
                    business lending plan had to address:

                        how the bank will use the funds to increase small-business lending in its
                         community;
                        the anticipated increases in small-business lending as a result of the receipt of
                         funds; and
                        proposed outreach and advertising efforts to inform members of the
                         community about the availability of the loans and how to apply.

                    More than a majority of TARP community banks (320 out of 552) applied for
                    SBLF funds.8 Treasury conducted the same application review process for TARP
                    banks as non-TARP banks, but added other conditions for TARP banks. Treasury
                    required that banks that participated in SBLF could not continue to participate in
                    TARP. TARP banks accepted into SBLF had to repay TARP in full, but could
                    use SBLF funds to do so. Treasury required that banks be in material compliance
                    with their TARP agreement, be current on TARP dividend payments, and not
                    have missed more than one dividend payment.9 Treasury would not consider the
                    TARP banks’ ability to raise matching funds from private sources, which it
                    allowed for non-TARP banks.

                    The Government’s Process To Review Banks’ Applications for
                    SBLF Funds

                    Congress required Treasury to consult with Federal banking regulators when
                    making investment decisions. At the program’s launch, four Federal regulators –
                    the Federal Reserve Board (“Federal Reserve”), FDIC, the Office of the

8
  A total of 320 TARP banks applied to SBLF – 315 in CPP, and 5 of which were in the TARP Community Development
  Capital Initiative.
9
  Any dividend payment not submitted within 60 days of its due date was considered a missed dividend payment.
  Seventy-nine of the 320 TARP banks that applied for SBLF were not eligible to participate because they were not
  current on their TARP dividend payments.


SIGTARP 13-002                                                                                           April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                           4




                     Comptroller of the Currency (“OCC”), and the Office of Thrift Supervision –
                     supervised the banks (and/or their bank holding companies) that applied to
                     SBLF.10 The Federal Reserve is the primary regulator for state member banks. In
                     addition, the Federal Reserve regulates bank holding companies whose subsidiary
                     banks are primarily regulated by the FDIC or OCC.

                     SBLF Application Phase One – Federal Banking Regulator Review

                     The SBLF application review process included review by both Treasury and
                     Federal banking regulators to determine each applicant’s suitability to receive
                     SBLF funds.11 Similar to applications for TARP, SBLF applications were routed
                     to the banks’ regulators for review. Banks applying for SBLF were required to
                     submit the small-business lending plan to their primary Federal regulator.
                     However, according to the regulators interviewed by SIGTARP, the regulators
                     primarily focused their review on the banks’ viability, as they did with TARP.
                     For the purposes of SBLF, Treasury defined “viability” as the bank being
                     (1) adequately capitalized, (2) not expected to become undercapitalized, and
                     (3) not expected to be placed into conservatorship or receivership. Also similar to
                     TARP, regulators were responsible for interpreting viability (under this definition)
                     and providing a “yes” or “no” assessment, indicating that a bank was viable or not
                     viable. In an interview, OCC’s Deputy Comptroller for Thrift Supervision told
                     SIGTARP that the regulator’s review process to determine viability was “left
                     over” from TARP.

                     Similar to TARP, if the banking regulator determined that the bank was “viable,”
                     the regulator forwarded the application, including a viability assessment of the
                     applicant bank, to Treasury. In addition to providing a viability assessment for
                     each OCC-regulated SBLF applicant, OCC also made a recommendation to
                     Treasury on whether to fund each applicant. According to Treasury, it treated a
                     negative OCC funding recommendation equally to a negative viability
                     assessment, rejecting the application if no additional considerations were
                     identified. The Federal Reserve and FDIC did not make recommendations to
                     Treasury beyond the viability determination.




10
   During the application period, the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 eliminated
   the Office of Thrift Supervision and transferred its rulemaking authority to the OCC and the Federal Reserve
   Supervisory authority was transferred to OCC, the FDIC, and the Federal Reserve. The transfer of these powers was
   completed on July 21, 2011, and the Office of Thrift Supervision was officially abolished 90 days later, on
   October 19, 2011.
11
   State regulators were also given an opportunity to weigh in.


SIGTARP 13-002                                                                                                April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                             5




                      SBLF Application Phase Two – Treasury Review

                      Treasury made investment decisions based in part on the regulators’
                      determinations of viability. As with TARP, there was an interagency advisory
                      committee that was comprised of at least one representative from each regulatory
                      agency (FDIC, Federal Reserve, and OCC) to review certain applications.12 If the
                      banking regulator decided that a bank was viable, but the bank met certain criteria
                      indicating risk, the interagency advisory committee reviewed the application. The
                      criteria that would trigger this interagency review included weak or dated bank
                      ratings (known as CAMELS ratings13), current financial performance ratios
                      indicating soundness concerns, or examinations by the regulators indicating recent
                      deterioration in the condition of the bank, or poor Community Reinvestment Act
                      performance (which is aimed at racially defined neighborhoods, and residents of
                      low and moderate income neighborhoods).14 This committee reviewed
                      applications of banks that regulators deemed not viable and would either
                      withdraw the bank from consideration or invite regulators to reevaluate the bank.

                      Treasury’s decision to fund was made by a majority vote of Treasury’s
                      Investment Committee, comprised of five senior-level Treasury officials, with the
                      final decision by Treasury’s Deputy Assistant Secretary for Small Business,
                      Community Development, and Affordable Housing Policy.15 Along with the
                      regulator viability determination, Treasury’s Investment Committee reviewed a
                      Treasury-prepared analysis of the bank’s financial condition that focused on the
                      likelihood that the bank would repay SBLF funds.

                      Objective
                      SIGTARP conducted this review to determine whether Treasury and regulators
                      consistently evaluated applications submitted by TARP banks to refinance into
                      SBLF.

                      SIGTARP conducted the audit from January 2012 through February 2013, in
                      accordance with generally accepted government auditing standards as prescribed
                      by the Comptroller General of the United States. For a discussion of the audit’s
                      scope and methodology, see Appendix A.

12
   The interagency advisory committee was known as the Application Review Committee. For purposes of this report,
    SIGTARP will refer to the Application Review Committee as the interagency advisory committee.
13
   CAMELS is a rating system whereby regulators assign banks a score of 1-5, with 1 being strongest, based on their
   Capital, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market risk.
14
   The interagency advisory committee also reviewed applications for banks in which Treasury received inconsistent
   input from state and Federal banking regulators or where Treasury staff recommended interagency review.
15
   The Investment Committee was comprised of: the SBLF Director, the Assistant Secretary for Financial Institutions,
   the Assistant Secretary for Financial Markets, the Assistant Secretary for Economic Policy, and the Assistant Secretary
   for Management. Three Investment Committee members or their delegates were required for a quorum.


SIGTARP 13-002                                                                                                   April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                            6




                      SBLF Has Not Effectively Increased Lending
                      by Former TARP Banks that Used SBLF
                      To Exit TARP
                      The 132 of 137 former TARP banks remaining in SBLF have not effectively
                      increased small-business lending because they used approximately 80% of SBLF
                      funds ($2.1 billion of the $2.7 billion) to pay off TARP, rather than to increase
                      lending. Treasury determined that as a matter of policy, both TARP and non-
                      TARP applicants to SBLF would have to project lending growth at least equal to
                      the amount of SBLF funding they received. However, that was the minimum, and
                      Treasury expected banks that received SBLF funds to increase lending in
                      multiples of every SBLF dollar. In a press release, Treasury announced that it
                      was investing more than $4 billion to “help propel lending by Main Street banks
                      in many multiples of that amount.” Some members of Congress believed that
                      lending had the potential to increase by multiples of ten, stating that SBLF would
                      lead to $300 billion in new small-business loans because the banks would be able
                      to lend as much as $10 for every $1 in SBLF funds.16

                      Twenty-four TARP banks that received $501 million in SBLF funds have not
                      increased their lending while in SBLF.17 The remaining former TARP banks
                      have increased lending by just $1.13 for each $1 in SBLF funds they received.18
                      By comparison, banks that did not participate in TARP but received SBLF
                      funding have increased small-business lending by more than three times that
                      amount – $3.45 for each $1 in SBLF funds.




16
   Senator Maria Cantwell, a member of the Senate Committee on Small Business and Entrepreneurship, quoted an
   estimate by the Independent Community Bankers of America that the $30 billion SBLF fund will generate up to
   $300 billion in small-business lending. In June 2010, Congresswoman Melissa Bean cited a Congressional Budget
   Office estimate that SBLF “can be leveraged by banks into over $300 billion in new small-business loans,” based on
   SBLF’s potential as a $30 billion small-business investment fund.
17
   The source for all SBLF lending data used in this report is Treasury’s Use of Funds Report, published on
   January 7, 2013, that reflects SBLF lending as of September 30, 2012, the latest data available.
18
   Qualified small-business lending per dollar of SBLF funding received is calculated by dividing the increase in
   qualified small-business lending by the amount of SBLF funding received.


SIGTARP 13-002                                                                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                                                 7




                  Figure 1 shows a comparison of SBLF funding levels and lending increases of
                  TARP banks and non-TARP banks.


                  FIGURE 1
                  DIFFERENCES IN INCREASES IN LENDING BY TARP AND NON-TARP
                  BANKS IN SBLF




                  Note: Increases are calculated as the difference between Qualified Small Business Lending as of
                  September 30, 2012, and the quarterly average of these loan balances for the four quarters preceding the legislation’s
                  passage (the same “baseline” period used by the program to calculate lending growth).
                  Source: SIGTARP analysis based on Treasury’s SBLF Transactions Report as of December 31, 2012, and Treasury’s
                  Use of Funds Report, data as of September 30, 2012.




                  Although as a group, the former TARP banks remaining in SBLF increased
                  lending by $1.13 for each $1 in SBLF funds received, there was a significant
                  difference in lending depending on whether the bank received only enough SBLF
                  funds to repay TARP or received additional funds. TARP banks that received
                  only enough SBLF funds to pay off TARP have lent out significantly less than
                  they received in SBLF funds – increasing lending by only 25ȼ for each $1 in
                  SBLF funds. TARP banks that received additional money beyond the outstanding
                  TARP balance have increased lending by $1.67 for every $1 in SBLF funds.




SIGTARP 13-002                                                                                                                         April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                                                      8




                       Figure 2 shows differences in lending increases in former TARP banks in SBLF
                       that only received enough SBLF funds to repay TARP compared to those that
                       received additional SBLF funds.


                       FIGURE 2
                       DIFFERENCES IN INCREASES IN LENDING BY TARP BANKS IN SBLF,
                       BASED ON AMOUNT OF SBLF FUNDING




                       Note: Increases are calculated as the difference between Qualified Small Business Lending as of
                       September 30, 2012, and the quarterly average of these loan balances for the four quarters preceding the legislation’s
                       passage (the same “baseline” period used by the program to calculate lending growth).
                       Source: SIGTARP analysis based on Treasury’s SBLF Transactions Report as of December 31, 2012, and Treasury’s
                       Use of Funds Report, data as of September 30, 2012.



                       Many TARP Banks Used SBLF Primarily as a Means To Exit TARP
                       and Its Restrictions

                       Many TARP banks primarily looked at SBLF as an opportunity to exit TARP,
                       escape TARP’s restrictions, and pay less for taxpayer money. In a 2011
                       Government Accountability Office (“GAO”) survey, some TARP banks cited the
                       opportunity to exit TARP as the primary reason for applying for SBLF funds.19
                       Banks that used SBLF funding to exit TARP were able to escape many of its

19
     GAO, “Small Business Lending Fund: Additional Actions Needed to Improve Transparency and Accountability,”
     GAO-12-183, December 2011. GAO received valid survey responses from 510 banks (non-TARP and TARP banks),
     of which 18% (approximately 92 banks) stated that they had applied to SBLF. Approximately 17 banks, 18% of the
     approximately 92 respondents that applied to SBLF, cited the opportunity to refinance out of TARP as a primary
     reason for seeking SBLF capital.


SIGTARP 13-002                                                                                                                              April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                              9




                         restrictions, such as TARP’s governance restrictions, executive compensation
                         restrictions, and limitations on luxury expenditures as well as the negative stigma
                         that existed under TARP. In an October 18, 2011, hearing before the Senate
                         Committee on Small Business and Entrepreneurship, senators cited an
                         October 6, 2011, Wall Street Journal article that quoted a senior bank officer as
                         saying that SBLF “gets you out of tough restrictions under TARP. But for us, the
                         real incentive was to get that small-business loan growth and bring our interest
                         rate down to 1%.” The newspaper also cited a senior official from a community
                         bank trade organization as saying that SBLF helps get smaller banks out of
                         TARP.20

                         TARP banks had much to gain and little to lose from refinancing into SBLF
                         irrespective of their small-business lending capability or willingness to lend. If
                         the former TARP banks fail to increase lending, there is no meaningful penalty.
                         The “fees” and “penalties” resulting from a TARP bank’s failure to increase
                         lending in SBLF bring the cost of capital in line with the cost under TARP. If the
                         bank had remained in TARP, it would pay a 5% dividend for each of five years,
                         after which the rate would increase to 9%. If a TARP bank that refinanced into
                         SBLF fails to increase its small-business lending, its dividend rate will increase
                         by 2 percentage points from, 5% to 7%, after the bank’s 9th quarter in SBLF and
                         there would be a 2% “lending incentive fee” to 9% on the fifth anniversary of the
                         TARP investment.21 This may explain why 320 of the 552 community banks
                         (58%) in TARP applied to SBLF, while only 9% (615) of the roughly 6,700
                         community banks that were not in TARP applied.

                         In addition, when discussing in press releases and blog posts how much Treasury
                         has received in TARP repayments, Treasury includes the more than $2 billion of
                         SBLF funds that banks used to repay TARP. In a letter to Secretary Geithner,
                         Senator Chuck Grassley asked Treasury to ensure that TARP funds repaid by
                         SBLF not be counted as funds repaid to the Government.




20
     Maltby, Emily, and Loten, Angus, “Tale of Two Loan Programs,” The Wall Street Journal, 10/6/2011.
21
     This additional fee expires 4½ years after Treasury’s SBLF investment, when the dividend rate resets to 9% for all
     SBLF participants, including those that did not participate in TARP.


SIGTARP 13-002                                                                                                     April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                               10




                        Treasury and Federal Banking Regulators
                        Did Not Adequately Assess Whether Banks’
                        Plans To Increase Small-Business Lending
                        Were Actually Achievable
                        Overall, Treasury and regulators did not conduct consistent, meaningful reviews
                        of the plans submitted by applicants that were supposed to explain how the banks
                        would increase small-business lending under SBLF. SIGTARP found that, during
                        the application review process, regulators did not consistently provide adequate
                        input to Treasury on the SBLF lending plans and generally did not scrutinize the
                        credibility of the information presented in the lending plans, focusing instead on
                        the applicant’s viability. Similarly, Treasury’s application review process was
                        almost entirely focused on the banks’ ability to repay the funds to Treasury,
                        overshadowing any consideration of the applicants’ preparedness to lend SBLF
                        money. Treasury determined that as a matter of policy, both TARP and non-
                        TARP applicants would have to project lending growth at least equal to the
                        amount of SBLF funding they received. However, Treasury did not adequately
                        evaluate the credibility of those projections, limiting the effectiveness of that
                        policy. As a result, Treasury and the Federal regulators did not reject any TARP
                        bank for SBLF because of the bank’s lending plan.22

                        Absent consistent and meaningful scrutiny by Treasury or regulators of banks’
                        lending plans, some institutions refinanced from TARP into SBLF seemingly
                        unable to fulfill the sole purpose of the program – to increase lending to small
                        businesses. Many TARP banks may not have had the wherewithal to increase
                        qualified small-business lending because they used SBLF funds entirely to repay
                        TARP obligations. Other TARP banks may not have received enough additional
                        funds to achieve the increases in lending proposed in their lending plans.
                        Treasury and regulators would have detected such concerns with proper scrutiny
                        of applicants’ lending plans and required the banks to demonstrate the source of
                        funds to lend. If the banks could not credibly demonstrate a source of funds to
                        lend beyond the SBLF funds they used to repay TARP, Treasury should have
                        found the banks to be unsuited to participate in the program.

                        Furthermore, 14 former TARP banks have paid dividends to common
                        shareholders while in SBLF, despite failing to increase their small-business
                        lending. When Treasury provided banks with SBLF funds, it included restrictions
                        on the distribution of dividends, should the banks’ capital base fall below a certain
                        level or should they miss payments to Treasury. However, no dividend


22
     Fifty-nine of the 320 TARP applicants revised their plans for various reasons, of which 38 eventually received SBLF
     funding.


SIGTARP 13-002                                                                                                    April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                        11




                  restrictions were placed on banks that failed to meet the projections established in
                  their SBLF lending plans.

                  Treasury and Federal Banking Regulators Did Not Effectively
                  Communicate with Each Other; Each Relied on the Other To Assess
                  the Banks’ Plans To Increase Lending

                  Lending plans submitted by SBLF applicants did not receive appropriate and
                  consistent Government scrutiny during the application review process in part
                  because Treasury and Federal banking regulators did not collaborate effectively
                  with each other, each claiming that the other had responsibility to assess the
                  lending plans. Treasury’s document “Overview of the Application Review
                  Process for the Small Business Lending Fund” states that Treasury would consult
                  with banking regulators and perform “a detailed financial assessment, including
                  an evaluation of the institution’s likelihood of repayment, as well as a review of
                  the applicant’s small-business lending plan.” This same Treasury document also
                  states that the Federal banking agencies “received and reviewed the small-
                  business lending plan submitted by each applicant.” Treasury’s SBLF program
                  director told SIGTARP that Treasury did not perform an independent analysis of
                  the projections in the lending plans. He told SIGTARP that the analysis of the
                  lending plans was the regulators’ responsibility, rather than Treasury’s, because
                  the Jobs Act required that the lending plans be submitted to regulators.

                  Regulators, however, did not agree with Treasury’s view, and OCC and FDIC
                  officials told SIGTARP that they perceived their role to be that of a conduit,
                  passing along the lending plans to Treasury. SIGTARP asked Federal Reserve’s
                  Manager of Community Banking Organizations whether the Federal Reserve had
                  considered whether the lending goals reported in TARP applicants’ lending plans
                  were attainable when some institutions used all the SBLF capital they received to
                  repay TARP. He responded that such consideration was Treasury’s, not the
                  regulators’, responsibility.

                  Despite holding several meetings to discuss the SBLF application review process,
                  Treasury and regulators failed to establish their respective roles and
                  responsibilities for review and scrutiny of the banks’ plans to increase small-
                  business lending. FDIC Legal Counsel told SIGTARP that FDIC and Treasury
                  met on numerous occasions to sort out their duties, and that Treasury should have
                  been well aware of FDIC’s interpretation of its responsibilities.




SIGTARP 13-002                                                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                        12




                  Regulators Did Not Consistently Take Action To Preserve the Intent
                  of Congress and SBLF by Meaningfully Reviewing the Banks’
                  Proposals To Increase Lending

                  During the SBLF application review process, regulators missed opportunities to
                  protect the interests of taxpayers because they did not ensure that the banks were
                  prepared to lend SBLF funds to small businesses consistent with the intent of
                  Congress. The Jobs Act specifically required that applicants, at the time they
                  submit an application to the Secretary, shall deliver a small-business lending plan
                  to their appropriate Federal banking regulator. The Jobs Act designated the
                  lending plans as “confidential supervisory information,” a label that applies to
                  information used by banking regulators in their supervision of banks. Given their
                  institutional expertise as bank supervisors, regulators were well suited to weigh in
                  on the credibility of the applicant banks’ plans to increase small-business lending.

                  SIGTARP found that, during the application review process, regulators did not
                  review banks’ plans to increase lending in the same manner. The FDIC was the
                  regulator for 69% of the TARP applicants for SBLF. According to an FDIC
                  official interviewed by SIGTARP, the FDIC did not analyze the lending plans and
                  served only as a conduit and broker to Treasury. FDIC guidelines instructed its
                  staff that no input was necessary unless an institution’s plan to increase small-
                  business lending presented safety and soundness concerns. Rather, FDIC deferred
                  the responsibility for analyzing the lending plans to Treasury, which lacked the
                  regulators’ familiarity with the applicants. In addition, in SIGTARP’s review of
                  32 applications by TARP banks for SBLF, the FDIC only provided input to
                  Treasury on the applicant lending plans for 4 of 23 FDIC-regulated banks.

                  An OCC official told SIGTARP that OCC viewed itself as a conduit for the
                  lending plan, with Treasury having primary responsibility for lending plan review,
                  but that OCC weighed in as well on the plans. The OCC official told SIGTARP
                  that OCC examiners reviewed the lending plans for reasonableness. In addition,
                  in SIGTARP’s review of 32 applications, the OCC provided input to Treasury on
                  the lending plans for all 5 applicant TARP banks regulated by the OCC.

                  The Federal Reserve’s review of lending plans appears to have differed depending
                  on whether it was the primary regulator of the bank or the regulator of the bank
                  holding company. The SBLF funding went to the bank holding company, not
                  directly to the bank. A Federal Reserve official told SIGTARP that the Federal
                  Reserve reviewed the lending plans, focusing on the impact of the plan on the
                  safety and soundness of the bank, not on the adequacy and achievability of the
                  proposed lending. When asked why the Federal Reserve often provided little or
                  no input on lending plans to Treasury, the Manager of Community Banking
                  Organizations at the Federal Reserve deferred responsibility to FDIC or OCC,
                  which regulated the bank holding companies’ subsidiary bank. In these



SIGTARP 13-002                                                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                        13




                  statements, the official is referring to applicants where the Federal Reserve
                  regulated the bank holding company, but not the subsidiary bank. The Federal
                  Reserve’s Manager of Community Banking Organizations added that the Federal
                  Reserve’s examiners reported “by exception” on the lending plans, meaning that
                  they would provide input to Treasury on the small-business lending plans only
                  when they detected an issue. However, without meaningful review, it is unclear
                  how the Federal Reserve would detect an issue. In addition, the Federal Reserve
                  regulated 31 of the 32 bank applicants reviewed by SIGTARP. In SIGTARP’s
                  review, the Federal Reserve provided input to Treasury on the lending plans of
                  only 7 of the 27 banks where the Federal Reserve regulated the bank holding
                  company and all 4 applicant banks primarily regulated by the Federal Reserve.

                  Treasury’s Review of Banks’ Plans To Increase Lending Was
                  Superficial and Employed a “Check-the-Box” Review

                  Even with limited input from the regulators on banks’ proposed lending plans, the
                  plans could have been adequately assessed had Treasury’s own review been
                  substantive. Instead, Treasury’s review of the lending plans submitted by SBLF
                  applicant banks was superficial, with Treasury merely filling in a “check-the-box”
                  review form that did not provide specific details to support the applicant’s ability
                  to increase lending as proposed. Treasury’s evaluation of the lending plans as
                  seen in its Small Business Lending Fund Lending Plan Evaluation reproduced in
                  Figure 3 focused on form over substance, scoring the banks on how many of the
                  12 elements the bank included. Treasury did not consult with regulators or use
                  their expertise in developing the form. Treasury assigned equal weight for the
                  bank’s description of its use of media outlets for outreach as it did for describing
                  its emphasis on small-business lending. Treasury did not require the banks to
                  provide other information that would be helpful to assess the credibility of
                  whether the banks could achieve their proposed increases in lending. For
                  example, plans could pass review without TARP banks describing where they
                  would get the funds to lend, how small-business lending fit within banks’ lending,
                  or without specifying the amount of resources banks planned to devote to small-
                  business lending.




SIGTARP 13-002                                                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                 14



                  FIGURE 3
                  TREASURY’S SMALL BUSINESS LENDING FUND LENDING PLAN
                  EVALUATION FORM




                  Source: Treasury.




SIGTARP 13-002                                                          April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                     15




                         In addition, SIGTARP’s review of meeting minutes and documentation for its
                         review of 32 TARP banks that applied for SBLF evidences that, for those banks,
                         Treasury officials generally did not assess whether the banks’ plans to increase
                         small-business lending were achievable. Neither the interagency advisory
                         committee nor SBLF program staff nor Treasury’s Investment Committee
                         addressed the lending plans for 91% of applications reviewed by SIGTARP.
                         Almost all – 29 of the 32 TARP bank applications to SBLF that SIGTARP
                         reviewed – showed no documented Treasury review of the banks’ lending plans.23
                         Minutes of the interagency advisory committee and Treasury’s Investment
                         Committee mentioned the lending plan for only 3 of the 32 TARP bank
                         applications SIGTARP reviewed; only 1 of these applications received a response
                         with a general statement that the lending plan “appeared to be responsive.”

                         Treasury invested SBLF funds in some banks, even though the banks submitted
                         lending plans that were deficient on their face. In its review of 32 applications,
                         SIGTARP found obvious deficiencies in lending plans that Treasury and Federal
                         banking regulators should have caught, even in a superficial review:

                            Two plans had lending projections lower than the SBLF funding requested,
                             even though Treasury’s policy required that lending be at least equal to SBLF
                             funding.
                            Three plans had lending projections based on a measure other than the
                             required two-year timeline.
                            Two plans that did not project a sufficient amount of lending were resubmitted
                             with unsupported upward revisions to their lending projections.
                            Two plans did not detail how the applicant would gain entry into the small-
                             business lending market, although the applicants were required to do so.




23
     Four of these applicants did not meet the criteria for review by the interagency advisory committee.


SIGTARP 13-002                                                                                              April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                                16




                        Conclusion and Recommendations
                        Viewed by members of Congress as a fix for the Troubled Asset Relief Program’s
                        (“TARP”) failure to require or incentivize banks to lend the money, the Small
                        Business Lending Fund (“SBLF”) provided participating banks with incentives to
                        increase small-business lending. However, the scope and scale of SBLF were not
                        as expected, with the U.S. Department of the Treasury (“Treasury”) investing
                        only $4 billion of the available $30 billion, two-thirds of which went to TARP
                        banks that used SBLF to repay TARP in 2011. Although Congress allowed
                        TARP banks to participate, Congress intended that the banks would increase their
                        loans to small businesses, and as a safeguard, required that applicant banks submit
                        to their Federal banking regulator a “small business lending plan” detailing how
                        the bank would increase lending.

                        However, former TARP banks in SBLF have not effectively increased small-
                        business lending and are significantly underperforming compared to non-TARP
                        banks.24 Twenty-four former TARP banks have not increased their lending while
                        in SBLF, despite those banks collectively receiving $501 million in SBLF funds.
                        The remaining former TARP banks have increased lending by $1.13 for each
                        SBLF dollar they received. By comparison, banks that did not participate in
                        TARP but received SBLF funding have increased small-business lending by more
                        than three times that amount – $3.45 for each $1 in SBLF funds.

                        The 132 of 137 former TARP banks remaining in SBLF have not effectively
                        increased small-business lending because they used approximately 80% of SBLF
                        funds ($2.1 billion of the $2.7 billion) to repay TARP. Although as a group, the
                        former TARP banks remaining in SBLF increased lending by $1.13 for each $1 in
                        SBLF funds received, there was a significant difference in lending depending on
                        whether the bank received only enough SBLF funds to repay TARP or received
                        additional funds. TARP banks that received only enough SBLF funds to repay
                        TARP have lent out significantly less than they received in SBLF funds –
                        increasing lending by only 25ȼ for each $1 in SBLF funds. TARP banks that
                        received additional SBLF money beyond the outstanding TARP balance have
                        increased lending by $1.67 for every $1 in SBLF funds, a fraction of lending
                        increases by non-TARP banks in SBLF.

                        TARP banks had much to gain and little to lose from refinancing into SBLF
                        irrespective of their small-business lending capability or willingness to lend. If
                        the former TARP banks fail to increase lending, there is no meaningful penalty.

24
     The source for all SBLF lending data used in this report is Treasury’s Use of Funds Report, published on
     January 7, 2013, that reflects SBLF lending as of September 30, 2012, the latest data available. Of the 137
     institutions that exited TARP through SBLF, 132 remained in SBLF through the program’s most recent reporting
     cycle ending September 30, 2012, the latest data available. Five of the original 137 institutions paid back Treasury
     subsequent to entering SBLF.


SIGTARP 13-002                                                                                                     April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                               17




                         The “fees” and “penalties” resulting from a TARP bank’s failure to increase
                         lending in SBLF bring the cost of capital in line with the cost under TARP.25

                         Congress’ safeguard of requiring that banks submit a small-business lending plan,
                         a requirement not present in TARP, did not have the intended effect because
                         Treasury and the Federal banking regulators did not adequately assess whether the
                         banks’ plans to increase small-business lending were achievable. SIGTARP
                         found that Treasury and the Federal banking regulators did not effectively
                         communicate with each other, each claiming that the other had responsibility to
                         assess the banks’ lending plans.

                         Treasury’s SBLF program director told the Office of the Special Inspector
                         General for the Troubled Asset Relief Program (“SIGTARP”) that Treasury did
                         not perform an independent analysis of the projections in the lending plans, and
                         that analysis of the lending plans was the regulators’ responsibility because the
                         law required that the lending plans be submitted to regulators. Regulators did not
                         agree with Treasury’s view, and Office of the Comptroller of the Currency
                         (“OCC”) and Federal Deposit Insurance Corporation (“FDIC”) officials told
                         SIGTARP in interviews that they were conduits, passing the lending plans to
                         Treasury. When SIGTARP asked the Federal Reserve Board’s (“Federal
                         Reserve”) Manager of Community Banking Organizations whether the Federal
                         Reserve had considered whether the lending goals in applicants’ plans were
                         attainable, when some banks used all the SBLF capital to repay TARP, he
                         responded that it was Treasury’s responsibility, not the responsibility of the
                         regulators. The result of this lack of effective communication was an overall lack
                         of scrutiny by Treasury and regulators to determine whether the banks’ plans were
                         credible. Notably, Treasury and regulators did not deny SBLF funding to any
                         TARP bank based on its lending plan.

                         In reviewing bank applications for SBLF, Treasury and the banking regulators did
                         not focus on whether the TARP banks were prepared to lend SBLF capital.
                         Instead regulators generally focused on the banks’ viability, in a process described
                         by one regulator as “left over” from TARP. Given their institutional expertise as
                         bank supervisors, regulators were well suited to weigh in on the credibility of the
                         applicant banks’ plans to increase small-business lending. Despite the fact that
                         the law that created SBLF required that applicants submit a small-business
                         lending plan to their Federal banking regulator, regulators did not consistently
                         take action to preserve the intent of Congress by meaningfully reviewing the
                         banks’ proposals to increase lending. Even where the regulator provided input to
                         Treasury on the lending plans, the regulator did not recommend that Treasury
                         deny funding to the TARP bank based on the lending plan. Despite regulators

25
     If the bank had remained in TARP, it would pay a 5% dividend for each of five years, after which the rate would
     increase to 9%. If a TARP bank that refinanced into SBLF fails to increase its small-business lending, its dividend
     rate will increase by 2 percentage points from, 5% to 7%, after the bank’s 9th quarter in SBLF and there would be a
     2% “lending incentive fee” to 9% on the fifth anniversary of the CPP investment.


SIGTARP 13-002                                                                                                     April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                              18




                        giving some input to Treasury on some banks’ lending plans, former TARP banks
                        have not effectively increased small-business lending.

                        Even with limited input from the regulators on banks’ proposed lending plans, the
                        plans could have been adequately assessed had Treasury’s own review been
                        substantive. Instead, Treasury’s application review process was almost entirely
                        focused on the banks’ ability to repay the funds to Treasury, overshadowing any
                        consideration of the applicant’s preparedness to lend SBLF money. Treasury’s
                        review of the lending plans submitted by SBLF applicant banks was superficial,
                        with Treasury merely filling in a “check-the-box” review form that did not require
                        applicants to provide specific details to support their ability to increase lending as
                        proposed.26 Treasury gave little to no consideration to key risk factors, such as
                        the source of funds to support new lending, despite obvious questions about
                        TARP banks’ ability to meet the SBLF program’s lending goals for those banks
                        that would use SBLF funds to repay TARP.

                        Treasury rejected a SIGTARP recommendation that Treasury should not count the
                        TARP capital when evaluating the health and viability of TARP banks, despite
                        SIGTARP’s warning that it made little sense to convert a TARP bank to SBLF if
                        the institution did not have the necessary capital to support increased lending.
                        Treasury claimed that the action SIGTARP recommended could unfairly
                        disadvantage the applicant bank. SIGTARP designed the recommendation to
                        ensure that banks did not use SBLF to escape TARP, and its restrictions, without
                        effectively increasing small-business lending, which unfortunately has come to
                        fruition.

                        Congress intended that SBLF fix the significant lost opportunity in TARP that
                        banks were not required or given incentives to lend. The lending plans were the
                        safeguard to provide that fix, but without consistent, meaningful review of those
                        plans by Treasury and the Federal banking regulators, there was no substantive
                        difference between TARP’s application review process and SBLF’s application
                        review process for TARP banks, as it related to lending. Many of the TARP
                        banks that refinanced into SBLF are demonstrating an inability or unwillingness
                        to fulfill the sole purpose of the program – increase lending to small businesses.
                        Many TARP banks may not have had the wherewithal to increase lending because
                        they used their SBLF funds to repay TARP. Other TARP banks may not have
                        received enough additional funds to achieve the increases in lending they
                        proposed. Treasury and regulators would have detected this with proper and
                        consistent scrutiny of applicants’ lending plans and required the banks to
                        demonstrate a source of funds to lend. If the banks could not credibly
                        demonstrate a source of funds to lend beyond the SBLF funds they used to repay
26
     Treasury’s evaluation of the lending plans as seen in its Small Business Lending Fund Lending Plan Evaluation
     reproduced in Figure 3 focused on form over substance, scoring the banks on how many of the 12 elements the bank
     included. Treasury assigned equal weight for the bank’s description of its use of media outlets for outreach as it did
     for describing its emphasis on small-business lending.


SIGTARP 13-002                                                                                                      April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                                         19




                      TARP, Treasury should have found the banks unsuited to participate in the
                      program and kept them in TARP.27

                      Unlike TARP’s first bank program, which was created during an emergency,
                      SBLF was not designed in the same crisis mode that existed in 2008. Treasury
                      and regulators had a year to develop and implement meaningful SBLF application
                      review procedures that would achieve the intended purpose of promoting lending.
                      By not doing so, Treasury and the regulators lost sight of Congress’ primary goal
                      of the program – to increase lending to small businesses. Treasury and the
                      regulators should have assessed the credibility of the information provided by
                      each applicant TARP bank in its lending plan to ensure that those banks exiting
                      TARP through SBLF were well positioned and well prepared to meet SBLF’s sole
                      purpose to increase lending to small businesses. At a minimum, Treasury and the
                      regulators should have required TARP bank applicants to identify another source
                      of capital to increase lending when the institutions sought to use all of the SBLF
                      capital they received to repay TARP. If these TARP banks had been unable to
                      demonstrate a credible source of capital to lend, regulators and Treasury may
                      have identified some of the applicants as unsuited to exit TARP using SBLF
                      funds. Had these banks remained in TARP, they would have been subject to
                      TARP’s limitations on executive compensation, luxury expenditures, and
                      cumulative dividends at a higher payment to taxpayers. Instead, SBLF served as
                      a vehicle for a significant number of TARP banks to exit TARP using
                      Government funds with more favorable terms than TARP with little resulting
                      benefit for small businesses.

                      Lessons Learned and Recommendations

                      In conducting this audit, SIGTARP identified a lack of effective coordination and
                      communication between Treasury and the Federal banking regulators. Early
                      communication and coordination of which entity was responsible for assessing the
                      credibility of banks’ lending plans would likely have ensured the effectiveness of
                      the lending plans – Congress’ critical safeguard to ensure that banks lent the
                      money. Similarly, the Government Accountability Office (“GAO”) recently
                      found that Treasury, regulators, and other members of the Financial Stability
                      Oversight Council (“FSOC”) 28 “could do more to promote collaboration” in
                      carrying out FSOC’s mission, specifically faulted FSOC for insufficiently
                      leveraging resources and for not establishing roles, responsibilities, and joint

27
   Furthermore, 14 former TARP banks have paid dividends to common shareholders while in SBLF, despite failing to
   increase their small-business lending. When Treasury provided banks with SBLF funds, it included restrictions on the
   distribution of dividends, should the banks’ capital base fall below a certain level or should they miss payments to
   Treasury. However, no dividend restrictions were placed on banks that failed to meet the projections established in
   their SBLF lending plans.
28
   Established under the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, the Financial Stability
   Oversight Council is chaired by the Secretary of the Treasury and comprised of Federal financial regulators, state
   regulators, and an independent insurance expert.


SIGTARP 13-002                                                                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                          20




                  strategies. Although the GAO report addresses a different joint initiative, its
                  findings indicate that the lack of coordination and communication that SIGTARP
                  identified in the SBLF application process is an ongoing issue that persists across
                  other joint efforts between Treasury and regulators. Implementing appropriate
                  corrective action could prevent Treasury and regulators from repeating past
                  mistakes in future collaborative endeavors.

                  Accordingly, SIGTARP recommends that:

                  1. Treasury and the Federal banking regulators should improve coordination
                     when collaborating on current and future initiatives by (1) defining the roles
                     of all participants at the outset of collaborative efforts by creating precise and
                     directed governing documents (i.e., charters) that clearly address the
                     responsibilities of each entity; and (2) jointly documenting processes and
                     procedures, including flowcharts, risk management tools, and reporting
                     systems to ensure that objectives are met. Each participant should sign off to
                     demonstrate their understanding of, and agreement with, these procedures.

                  2. To increase small-business lending by former TARP banks participating in
                     SBLF, Treasury should work with the banks to establish new, achievable
                     plans to increase lending going forward.

                  3. To preserve the amount of capital former TARP banks participating in SBLF
                     have to lend, the primary Federal banking regulators (the Federal Reserve,
                     FDIC, or OCC) should not approve dividend distributions to common
                     shareholders of former TARP banks that have not effectively increased small-
                     business lending while in SBLF.




SIGTARP 13-002                                                                                   April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                        21




                  Management Comments and SIGTARP’s
                  Responses
                  Treasury’s Comments

                  Treasury stated statistics that as a group former TARP banks in SBLF have
                  increased lending. SIGTARP recognizes an increase in lending by all but 24 of
                  those banks, but finds it not effective ($1.13 for each $1 SBLF), particularly in
                  comparison to non-TARP banks ($3.45 for each $1 SBLF). Congress did not set a
                  benchmark or goal that as a group SBLF banks increase lending by 10%, as
                  Treasury contends. Treasury’s 2011 press release states that the SBLF funds
                  would increase lending by “many multiples” of the SBLF amount, and there are
                  similar statements by members of Congress. It was never the expectation that
                  SBLF banks would only lend out the SBLF funds (a multiple of one). Moreover,
                  24 former TARP banks in SBLF have not increased lending, a fact that Treasury
                  does not address. In addition, TARP banks that received only enough SBLF
                  funds to repay TARP have lent out significantly less than they received in SBLF
                  funds – increasing lending by only 25ȼ for each $1 in SBLF funds, another fact
                  that Treasury does not address. SIGTARP’s concern is not that TARP banks
                  could exit TARP through SBLF (as Treasury contends), but instead that the
                  TARP banks that did would have a meaningful impact on lending to small
                  businesses, which unfortunately has not occurred, but still could occur with new
                  lending plans.

                  Treasury disagreed that its communication with the regulators was not effective,
                  claiming that SIGTARP’s report has errors and omissions, without disputing the
                  facts or data in the report. This statement appears to be merely a disagreement
                  with SIGTARP’s findings. The only factual dispute that Treasury claims is that
                  SIGTARP “apparently relies on misquotes or out-of-context statements from
                  SBLF’s program director to argue there was a miscommunication.” SIGTARP
                  accurately quoted a statement made by Treasury’s SBLF program director in an
                  interview with SIGTARP that Treasury did not perform an independent analysis
                  of the projections in the lending plans, and that the analysis was the regulators’
                  responsibility, rather than Treasury. SIGTARP presents this statement in the
                  exact context in which it was used – in a discussion of who was responsible for
                  the lending plans. His statement was borne out by SIGTARP’s document review.
                  Importantly, Treasury is not saying now that it performed an independent analysis
                  of the projections in the lending plans or that the analysis was its responsibility.
                  Rather, Treasury says that it did a “serious review” and rejected as inadequate
                  30% of plans. Treasury rejected the plans for missing information and banks
                  resubmitted the information. Treasury did not conduct a substantive analysis of
                  the lending projections. The miscommunication also is based on document
                  review and SIGTARP interviews with officials from the FDIC, the OCC, and the
                  Federal Reserve, who told SIGTARP that they believed Treasury had


SIGTARP 13-002                                                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                          22




                  responsibility for analyzing the lending plans. Indeed, FDIC’s official response to
                  this report states, “It was agreed that Treasury, as program administrator and
                  investor, would review the plans’ sufficiency in relation to program goals and
                  requirements.” Clearly there was a miscommunication.

                  Federal Reserve’s Comments

                  The Federal Reserve disagreed that the regulators’ review of lending plans was not
                  meaningful. The Federal Reserve reviewed lending plans when it was the primary
                  regulator but did not consistently review the plans when it regulated only the applicant
                  bank’s holding company. The SBLF money went to the holding company, and the
                  Federal Reserve had another opportunity to analyze the plans to ensure that the bank
                  could increase lending.

                  The Federal Reserve rejected SIGTARP’s recommendation to preclude paying
                  dividends by institutions that do not increase small-business lending, stating that it
                  “does not believe that it is appropriate to use authority specifically designed to
                  address the safety and soundness of depository institutions and their holding
                  companies to direct firms to engage in particular types of lending.” While
                  historically, the banking regulators have focused only on safety and soundness,
                  their role related to TARP, and here SBLF, has been unprecedented. For the first
                  time, Treasury was investing in financial institutions and Treasury turned to those
                  institutions’ regulators for help in determining whether to make that investment.
                  Because regulators took on this new role of consulting and providing
                  recommendations that Treasury took into account in making its investment
                  decision, it has a responsibility to protect taxpayers’ investment. Taxpayers are
                  not protected when banks that took SBLF funds to exit TARP did not increase
                  lending, but still paid dividends to shareholders. If those banks do not have
                  sufficient capital to lend as they promised the Government in taking the SBLF
                  funds, they do not have sufficient capital to pay dividends. We acted as one
                  Government in making the investment decision and must act as one Government
                  in protecting that investment.

                  FDIC’s Comments

                  The FDIC confirmed that it was focused on safety and soundness, while it was
                  Treasury’s responsibility to review the lending plans. The FDIC agreed with
                  SIGTARP’s recommendation to improve coordination with Treasury, but rejected
                  SIGTARP’s recommendation to preclude dividend payments, claiming there is no
                  authority in the Jobs Act. Banking regulators have significant authority to
                  preclude dividends and if they need additional legislative authority, they should
                  seek it.




SIGTARP 13-002                                                                                  April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                      23




                  OCC’s Comments

                  The OCC agreed that SIGTARP’s data are “true,” but states that there were other
                  factors that influenced lending such as economic conditions. That is precisely
                  why Treasury and banking regulators who knew these economic conditions
                  should have analyzed the lending plans, and can still create new lending plans.
                  The OCC agreed with SIGTARP’s recommendation to improve coordination, but
                  rejected the recommendation to preclude dividends, stating that national banks do
                  not apply to pay dividends unless there are extraordinary circumstances, such as a
                  provision in an enforcement action, and otherwise there is no basis in existing
                  statutes to restrict dividends. The OCC can stop these dividend payments, and if
                  the OCC believes it needs additional legislative authority, it should seek it.




SIGTARP 13-002                                                                               April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                          24




Appendix A – Scope and Methodology
We performed this audit under the authority of Public Law 110-343, as amended, which also
incorporates the duties and responsibilities of inspectors general under the Inspector General Act of
1978, as amended. SIGTARP initiated this audit after institutions exited TARP by refinancing into
SBLF, a program promulgated by the Small Business Jobs Act of 2010. Our objective was to
determine the extent to which Treasury and regulators consistently evaluated applications submitted
by TARP banks to exit TARP by refinancing into SBLF.

In November 2011, SIGTARP announced a review of Treasury’s SBLF application process because
of the number of TARP institutions that exited TARP through SBLF and the significant amount of
TARP investment that was refinanced into the new program. SIGTARP coordinated with other
oversight agencies to ensure maximum coverage and to reduce any overlap, resulting in the report’s
focus on the above objective.

To evaluate the SBLF application process established and implemented by Treasury and regulators
between October 2010 and October 2011, we met with Treasury, OCC, FDIC, and Federal Reserve
officials involved in the application process to discuss roles and responsibilities in the decision-
making process. We also reviewed Treasury and regulator policies, procedures, internal controls,
and documents relevant to the SBLF application and decision-making process for all SBLF
applicants. We examined the processes by Treasury and regulators to assess the financial condition
of all applicants and the lending plans they submitted. Additionally, we reviewed legislation
pertaining to SBLF, including the Small Business Jobs Act of 2010, which provided Treasury with
the authority to issue regulations and other guidance to permit eligible institutions to refinance from
TARP to SBLF and the legislative history of the Act.

In addition to our work described above, SIGTARP selected a judgment sample of 32 applicants (or
10% of the total population of 320 TARP institutions that applied to the SBLF program). We drew
only from the 164 institutions that proceeded far enough into the application process for Treasury to
create an application package, including investment analyses. Among these, SIGTARP selected 32
of the marginal applications – those submitted by institutions deemed viable but where we identified
one or more risk factors. These risk factors include, but are not limited to, low initial repayment
probability, high levels of non-performing loans, low regulatory ratings, “stale” regulatory exams
and ratings, and dividend restrictions that were either waived or lifted. Although a judgment sample
does not permit projecting findings to the wider population, employing this methodology allowed
SIGTARP to focus in more detail on the decision making applied to these applications.

To ensure our sample largely represented the population of TARP banks that applied to SBLF,
SIGTARP considered each institution’s regulator, size, location, and whether or not it ultimately
received SBLF funding. We then obtained additional information for each applicant, including
regulator input, probability of repayment analyses produced by Treasury financial agents, small-
business lending plans, and recommendations from the SBLF Application Review Team. The
investment analyses SIGTARP reviewed outlined each bank’s financial standing and its ability to
meet dividend requirements. We also reviewed the official meeting minutes of the SBLF



SIGTARP 13-002                                                                                   April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                         25




Application Review Committee (an interagency advisory committee) and the SBLF Investment
Committee, bank examination reports, and Treasury and regulator emails.

We conducted our audit from January 2012 through February 2013. Our audit was conducted in
accordance with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
findings and conclusions based on the audit objective. SIGTARP believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the audit objective.

Limitations on Data
SIGTARP generally relied on Treasury and regulators to provide relevant documentation, including
email communications, examinations, and other files related to the SBLF application review process.
To the extent that the documentation provided to SIGTARP by Treasury and regulators did not
reflect a comprehensive response to SIGTARP’s documentation requests, SIGTARP’s review may
have been limited.

Use of Computer-Processed Data
To perform this audit, SIGTARP used data provided by Treasury. To assess the extent to which
Treasury generated reliable data, we met with SBLF officials to discuss the database and data fields.
Additionally, we tested the data using the SIGTARP matrix to identify any potentially significant
reliability issues. We also relied on GAO’s assessment and reliability conclusion on a similar SBLF
dataset it reviewed and reported on in December 2011. Based on the results of our electronic testing,
discussions with SBLF officials, and the determination made by GAO regarding a similar database
provided by Treasury, we concluded that Treasury’s data are sufficiently reliable for the purposes of
our audit.

Internal Controls
To assess internal controls pertaining to the SBLF application review process, SIGTARP
interviewed staff and reviewed policies and procedures from Treasury, the FDIC, the Federal
Reserve, and the OCC to determine the extent to which internal controls were reasonable and
effective.

Prior Coverage
SIGTARP has not performed any prior audits related to the SBLF program, although SIGTARP
previously issued recommendations to Treasury regarding TARP banks refinancing into SBLF,
which can be found in SIGTARP’s Quarterly Report to Congress dated October 26, 2010. In
addition, for further discussion on SBLF investments into TARP banks, see “TARP & SBLF: Impact
on Community Banks,” published April 25, 2012, in SIGTARP’s Quarterly Report to Congress.
www.sigtarp.gov/Audit%20Reports/TARP_SBLF_Special_Section.pdf




SIGTARP 13-002                                                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                   26




Appendix B – Acronyms and Abbreviations

CPP – Capital Purchase Program

FDIC – Federal Deposit Insurance Corporation

Federal Reserve – Federal Reserve Board

FSOC – Financial Stability Oversight Council

GAO – Government Accountability Office

Jobs Act – Small Business Jobs Act of 2010

OCC – Office of the Comptroller of the Currency

SBLF – Small Business Lending Fund

SIGTARP – Office of the Special Inspector General for the Troubled Asset Relief Program

TARP – Troubled Asset Relief Program

Treasury – U.S. Department of the Treasury




SIGTARP 13-002                                                                            April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP                                        27




Appendix C – Audit Team Members
This audit was conducted and the report was prepared under the direction of Bruce S. Gimbel,
Acting Assistant Deputy Special Inspector General for Audit and Evaluation, Office of the Special
Inspector General for the Troubled Asset Relief Program.

Staff members who conducted the audit and contributed to the report include Shawn Graham,
Roxanne Caruso, Mary Jean, and Sean Morgan.




SIGTARP 13-002                                                                              April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        28




Appendix D – Management Comments from Treasury, FDIC,
OCC, and Federal Reserve




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        29




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        30




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        31




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        32




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        33




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        34




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        35




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        36




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        37




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        38




SIGTARP 13-002                                                 April 9, 2013
BANKS THAT USED THE SMALL BUSINESS LENDING FUND TO EXIT TARP        39




SIGTARP 13-002                                                 April 9, 2013
SIGTARP 13-002   April 9, 2013
